               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Procurement-Related Ethical
      Violations at Vehicle Maintenance
                   Facilities

         Management Advisory Report




                                          December 18, 2013

Report Number SM-MA-14-002
                                                                      December 18, 2013

                                             Procurement-Related Ethical Violations at
                                                      Vehicle Maintenance Facilities

                                                          Report Number SM-MA-14-002



BACKGROUND:                                    responsibilities for vehicle maintenance
U.S. Postal Service employees are              repair agreements to ensure separation
required to adhere to prescribed               of duties; nor did current policy require
standards of ethical conduct in the            periodic reviews of transactions at
performance of their official duties. For      VMFs. Furthermore, personnel involved
example, employees are prohibited from         in these cases did not complete annual
using their public office for private gain     ethics training. As a result, the Postal
and soliciting or accepting any gift or        Service may be at risk of selecting
item from those doing business with the        vendors who do not provide the best
Postal Service. The U.S. Postal Service        value to the Postal Service and
Office of Inspector General (OIG) has          overpaying vehicle maintenance repairs.
completed several investigations in
recent years that identified ethical           WHAT THE OIG RECOMMENDED:
violations by Postal Service vehicle           We recommended management issue
maintenance facility (VMF) employees           guidance to clarify roles and
and contractors. Our objective was to          responsibilities for vehicle maintenance
assess procurement-related ethical             repair agreements to ensure separation
violations involving current and former        of duties, require periodic reviews of
Postal Service employees at VMFs to            transactions and repairs completed at
identify internal control deficiencies.        VMFs, develop additional ethics training,
                                               and require annual ethics training for
WHAT THE OIG FOUND:                            vehicle repair managers and
OIG investigations closed during fiscal        supervisors.
years (FY) 2009 through 2013 identified
11 instances of VMF employees                  Link to review the entire report
receiving bribes in exchange for steering
work, receiving kickbacks for arranging
fraudulent payments to contractors, or
concealing personal relationships with
suppliers to secure contract work. The
Postal Service paid these contractors
more than $14.5 million during the period
of the violations, which occurred in FYs
2004 through 2012.

The ethical violations occurred in an
environment in which management did
not provide clear roles and
December 18, 2013

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           EDWARD F. PHELAN, JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                           HELEN GRANT
                           ASSOCIATE GENERAL COUNSEL AND CHIEF ETHICS
                            OFFICER




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – Procurement-Related
                           Ethical Violations at Vehicle Maintenance Facilities
                           (Report Number SM-MA-14-002)

This report presents the results of our review of the U.S. Postal Service’s Procurement-
Related Ethical Violations at Vehicle Maintenance Facilities (Project Number
13YG011SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.


Attachment

cc: Corporate Audit and Response Management
Procurement-Related Ethical Violations                                                                            SM-MA-14-002
 at Vehicle Maintenance Facilities


                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Internal Control Deficiencies in Vehicle Repair Purchases .............................................. 1

Distribution of Repair Work ............................................................................................. 2

Fraudulent Payments ...................................................................................................... 2

Business Provided to Family Member Under Verbal Agreement .................................... 3

Benchmarking ................................................................................................................. 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Management’s Comments .......................................................................... 9
Procurement-Related Ethical Violations                                         SM-MA-14-002
 at Vehicle Maintenance Facilities


Introduction

This report presents the results of our review of the U.S. Postal Service’s
procurement-related ethical violations at vehicle maintenance facilities (VMF) (Project
Number 13YG011SM000). This self-initiated review examines potential control
deficiencies related to ethical violations within the Postal Service’s procurement
environment. Our objective was to assess procurement-related ethical violations
involving current and former Postal Service employees at VMFs to identify internal
control deficiencies. See Appendix A for additional information about this audit.

Postal Service employees are required to adhere to prescribed standards of ethical
conduct in the performance of their official duties. For example, employees are
prohibited from using their public office for private gain and soliciting or accepting any
gift or item from those doing business with the Postal Service. The U.S. Postal Service
Office of Inspector General (OIG) has completed several investigations in recent years
that identified ethical violations committed by VMF employees in supervisory and
nonsupervisory positions.

Conclusion

During fiscal years (FY) 2009 through 2013 OIG investigations closed 11 instances of
VMF employees with corrupted interests receiving bribes in exchange for steering work,
receiving kickbacks for arranging fraudulent payments to contractors, or concealing
personal relationships with a supplier to secure contract work. The Postal Service paid
these contractors more than $14.5 million during the period of these violations, which
occurred during FYs 2004 through 2012. We also benchmarked procurement cases
from other government agencies and found the other agencies reported violations
similar to the Postal Service cases.

Internal Control Deficiencies in Vehicle Repair Purchases

Eleven ethical violations involved VMF employees who received bribes in exchange for
steering vehicle repair work to contractors, accepted kickbacks after arranging
fraudulent payments to various contractors, and concealed a personal relationship with
a supplier to secure contract work. Specifically, eight violations involved two businesses
with the same owner who paid bribes to VMF employees to steer vehicle repair work to
the businesses when other suppliers existed to perform the repairs; two violations
involved a VMF manager and a supervisor who conspired with contractors to defraud
the Postal Service by submitting fraudulent requests for payment in exchange for a
portion of the payments; and another violation involved a nonsupervisory VMF
employee who assisted a family member in securing Postal Service repair and
maintenance business. Ten of the violations occurred under vehicle maintenance repair


                                             1
Procurement-Related Ethical Violations                                                              SM-MA-14-002
 at Vehicle Maintenance Facilities


agreements (VMRA)1 and the remaining violation occurred under a verbal agreement
where the manager did not obtain a VMRA.

Distribution of Repair Work

Eight ethical violations involved two businesses with the same owner who paid bribes to
VMF employees to steer vehicle repair work to the businesses when other suppliers
existed to perform the repairs. VMF managers, supervisors, lead technicians, and
mechanics participated in the scheme by accepting bribes in the form of cash, gifts,
entertainment, and personal services in exchange for sending work, valued at more
than $13 million, to these two businesses over about 7 years:

   Seven of these employees received frequent cash and noncash bribes from a
    contractor,             , during FYs 2004 through 2010 to ensure the employees
    continued to steer contract work to the business. The briberies continued until the
    contractor reported the briberies in a deal to protect his wife, who was under
    investigation by the U.S. district attorney in an unrelated case.

   From FYs 2004 to 2008, another employee received bribes to steer work to
                                  , a related contracting business at a different location.
    Once the employee was promoted to management and moved to the other location,
    the manager continued to accept the bribes for sending work to
    until the summer of 2008 when the manager’s boss was charged with embezzling
    from the Postal Service and the contractor closed its business at that location. The
    Postal Service made more than $13 million in Voyager eFleet Card2 or money order
    payments to these contractors during the period of the bribes, which occurred during
    FYs 2004 through 2010.

Fraudulent Payments

Two ethical violations involved a VMF manager and supervisor who conspired with
contractors to defraud the Postal Service by submitting fraudulent requests for payment
in exchange for a portion of the payments:

   A VMF supervisor requested two contractors,
           , to submit fraudulent requests for payment through the Voyager eFleet Card
    system during FYs 2008 through 2011 to receive payments for repairs they did not
    perform. The supervisor approved the payments without the contractors submitting
    invoices and the contractors obtained cash from their accounts to provide kickbacks
    to the supervisor. The Postal Service paid the contractors $955,056 during the


1
  A VMRA is an ordering agreement used by VMFs, which defines the terms and conditions of future work. Under a
VMRA, the ordering official may place orders up to $10,000 noncompetitively. VMRAs are subject to the Postal
Service's Supplying Principles and Practices (SP&P).
2
  The Voyager eFleet Card System provides a single credit card to use for commercially purchased fuel and routine
maintenance expenses for Postal Service-owned vehicles.


                                                         2
Procurement-Related Ethical Violations                                                                 SM-MA-14-002
 at Vehicle Maintenance Facilities


    period of the fraud, which occurred during FYs 2008 through 2011. The supervisor
    and contractors were ordered to pay restitution totaling $330,000.

   A VMF manager approved the payment of fictitious invoices submitted by a
    contractor,                  , in exchange for a portion of the payments. The
    contractor, who received $270,516 for vehicle washing and cleaning services
    between FYs 2004 and 2007, conspired with the manager to submit false invoices
    for services not performed and, in turn, paid kickbacks to the manager who
    approved the payments. The VMF manager and contractor were ordered to pay
    restitution of $190,000.

Business Provided to Family Member Under Verbal Agreement

Another ethical violation involved a nonsupervisory VMF employee who assisted a
family member in securing Postal Service repair and maintenance business. The
employee and his son concealed their relationship in pursuit of Postal Service work by
having the son assume a false identity. The employee introduced his son, who was
using a different name, as a prospective contractor to VMF management, which led to
the employee's son’s inclusion in a Postal Service network of approved vendors. Once
approved, the employee could directly award work to his son. In addition, the VMF
manager at the facility did not secure a VMRA but allowed the contractor to work under
a verbal agreement. The Postal Service paid the contractor $293,187 during FYs 2011
and 2012, with payments made via Voyager card and the VMF manager approved the
payments without additional oversight.

These violations occurred in an environment in which management did not define clear
roles and responsibilities for VMRAs to ensure separation of duties. Specifically, VMF
personnel who selected the suppliers also influenced the assignment of repairs and
approval of payments to the suppliers. Further, no one above the facility level monitored
the payments and services allocated to each supplier or performed periodic audits of
transactions, invoices, and maintenance at VMFs. VMF personnel confirmed that district
personnel do not review their work. Additionally, a district official stated that he does not
review invoices or work completed by the VMF and does not provide input into supplier
selection.

As a result, Postal Service agreements with suppliers completing vehicle repairs and
maintenance are at risk of fraud, including potential conflicts of interest, bribery, and
collusion. Best value3 may not be achieved if employees continuously steer work to
suppliers who pay bribes rather than consider price, quality, and other factors when
making recurring purchases.




3
 Best value is the basis of all Postal Service sourcing decisions and is determined by analysis of a contract
solicitation’s evaluation factors, weightings, and price.

                                                           3
Procurement-Related Ethical Violations                                                                 SM-MA-14-002
 at Vehicle Maintenance Facilities


Management deployed the Solution for Enterprise Asset Management (SEAM) 4 system
for vehicle repair services in November 2012. The purpose of the system is to
standardize maintenance and repair functions. Once fully implemented at VMFs, SEAM
should provide additional controls and separation of duties for the acceptance, review,
and approval of vehicle repair and maintenance transactions. However, as of
October 2013, SEAM was not used consistently for vehicle repair services because
other payment methods for vehicle repair expenses exist. Management stated that
SEAM is the preferred method but its functionality is not fully implemented. For
example, in one district only one of seven VMFs used SEAM for the majority of vehicle
repairs. Until SEAM is fully implemented and required at each VMF, these risks will still
exist.

Furthermore, personnel involved in these cases did not complete annual ethics training
because they were not required to file confidential financial disclosure statements5 in
accordance with the Standards of Ethical Conduct for Employees of the Executive
Branch. The lack of annual ethics training for employees involved in vehicle repair
purchases may promote unethical behavior and place the Postal Service at risk of
overpayments. The Postal Service chief ethics officer has plans to develop training
focusing specifically on procurement and contracting ethics.

Benchmarking

We benchmarked ethical violation cases from other government agencies against
Postal Service cases and found similar types of violations. We identified 25 cases6
reported by other agencies during calendar years 2008 to 2012 that had characteristics
similar to the Postal Service cases. These cases involved employees accepting bribes
and kickbacks in exchange for steering work to contractors or inflating contract costs,
awarding contracts to family members and associates, and participating in contract
decisions with prospective employers or others with whom there was a financial interest.

Recommendations

We recommend the vice president, Supply Management:

1. Issue guidance to clarify roles and responsibilities for vehicle maintenance repair
   agreements to ensure separation of duties to include selecting suppliers, assigning
   repairs and approving payments until the Solution for Enterprise Asset Management
   system is fully implemented and required.


4
  An Oracle web-based application designed to improve inventory tracking and visibility, implement forecasting and
automatic replenishment capabilities, and standardize asset tracking and maintenance/repair functions.
5
  Nonexecutive employees who have considerable decision-making authority in procurement functions are generally
required to file an annual Confidential Financial Disclosure Report, Office of Government Ethics (OGE) Form 450.
Every OGE Form 450 filer is also required to take annual ethics training. The Postal Service Ethics Office tracks the
completion of the disclosures and ethics training, which are required based on certain job codes.
6
  Total includes 19 cases reported through the OGE tracking system and six cases reported independently by other
agencies.

                                                          4
Procurement-Related Ethical Violations                                           SM-MA-14-002
 at Vehicle Maintenance Facilities


We recommend the vice president, Delivery and Post Office Operations:

2. Establish a policy requiring periodic reviews of vehicle maintenance facilities repair
   and maintenance transactions, including a review of invoices and maintenance
   completed on vehicles until the Solution for Enterprise Asset Management system is
   fully implemented and required.

3. Require vehicle maintenance facilities managers and supervisors involved with
   supplier selection or payment to complete annual ethics training focused on
   procurement and contracting practices.

We recommend the associate general counsel and chief ethics officer:

4. Develop ethics training focused on procurement and contracting and make it
   available to vehicle maintenance facilities managers and supervisors involved with
   supplier selection or payment.

Management’s Comments

Management agreed with recommendations 1, 3, and 4 and disagreed with
recommendation 2. Management did not specifically state whether they agreed or
disagreed with the findings; however, they disagreed with our conclusion that violations
occurred because they did not provide clear roles and responsibilities regarding
separation of duties for vehicle maintenance repair agreements. Management stated
that these deficiencies indicated a willful intent to commit fraudulent activity for personal
gain, and collusion was used to circumvent known policies.

Regarding recommendation 1, management will issue a communication referencing
Vehicle Maintenance Bulletin, VMB-02-11, released in April 2011 as guidance relating
to roles, responsibilities, and separation of duties. In addition, they will convey the
required use of SEAM to all VMFs in a special “Note of the Week” newsletter by
January 2014.

Regarding recommendation 3, management stated the Delivery group will notify all
vehicle maintenance locations of required annual ethics training as developed by the
associate general counsel and chief ethics officer by April 2014. For recommendation 4,
they are developing an ethics training course focused on procurement and contracting.
It will be available to VMF managers and supervisors by April 2014.

Management disagreed with recommendation 2 and stated that SEAM has been fully
implemented since November 2012 and provides for the review of repair and
maintenance transactions. Management also stated that policies and procedures
outlined in Handbook PO-701, Fleet Management, Chapter 4, Vehicle Management
Accounting System, provide guidance to VMFs on ensuring complete and accurate
information. However, in coordination with implementing recommendation 1,
management will reinforce the requirement that SEAM be used to track all internal and


                                              5
Procurement-Related Ethical Violations                                       SM-MA-14-002
 at Vehicle Maintenance Facilities


contract vehicle repairs regardless of payment method by January 2014. See Appendix
B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues identified in the report.

Management disagreed with recommendation 2 and stated that SEAM has been fully
implemented since November 2012 and provides for the review of repair and
maintenance transactions. However, as of October 2013 not all VMF locations were
fully utilizing SEAM for vehicle repair services and VMF personnel were not aware of a
policy requiring the use of SEAM for all transactions. Management’s planned actions to
establish and enforce a requirement to use SEAM to track all internal and contract
vehicle repairs, regardless of payment method, will address the recommendation.

In regard to management’s statement that they disagreed with our conclusion that
violations occurred because they did not define clear roles and responsibilities, we
contend that the lack of annual procurement ethics training contributed to an
environment that allowed these violations to occur. Therefore, if employees are not
properly trained and consistently reminded of ethical standards regarding to
procurements, they could become susceptible to committing fraudulent acts.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            6
Procurement-Related Ethical Violations                                                        SM-MA-14-002
 at Vehicle Maintenance Facilities


                              Appendix A: Additional Information

Background

The OIG has completed several investigations in recent years that identified corrupt
practices involving Postal Service employees and contractors. OIG investigations
closed during FYs 2009 through 2013 identified 11 instances in which VMF employees
with corrupted interests received bribes in exchange for steering work, received
kickbacks for arranging fraudulent payments to contractors, or concealed a personal
relationship with a supplier to secure contract work. The violations were committed by
employees in supervisory and nonsupervisory positions. Employees in these cases
willfully violated Postal Service ethics policies.

VMFs can use local buying authority or a VMRA for contractor vehicle repairs. Local
buying authority is used for day-to-day operational needs when other priority sources
are not available. Local buying authority, which is available for purchases under
$10,000, is not subject to the SP&P and does not require competition for purchases.
Under local buying authority, VMF managers have the authority to pay suppliers up to
$2,000 per transaction to complete day-to-day vehicle repairs and maintenance. In
addition, the VMF manager may work with the Vehicles and Delivery/Industrial
Equipment Category Management Center7 to establish a VMRA for certain recurring
services. Under a VMRA, the ordering official can place noncompetitive orders up to
$10,000, depending on the agreement. Purchases made under VMRAs are subject to
the SP&P. The contractor is generally paid using the Voyager card or SEAM.

Objective, Scope, and Methodology

Our objective was to assess procurement-related ethical violations involving current and
former Postal Service employees at VMFs to identify internal control deficiencies. To
accomplish our objective, we:

   Reviewed Postal Service policies, procedures, and guidelines related to ethics,
    conflicts of interest, and procurements.

   Reviewed federal government ethics laws and regulations.

   Interviewed personnel from the Postal Service’s Office of Ethics regarding the Postal
    Service’s guidelines and practices for ethics training and financial disclosures.

   Identified 11 ethics violation cases closed during FYs 2009 through 2013 involving
    VMF employees, along with supporting documentation from the OIG Office of




7
 Postal Service Category Management Centers manage purchase and related supply management activities for
specific commodities.

                                                     7
Procurement-Related Ethical Violations                                                          SM-MA-14-002
 at Vehicle Maintenance Facilities


    Investigations (OI) Case Reporting, Investigations Management, and Evidence
    System (CRIMES)8 database.9

   Conducted interviews with OI special agents to gather additional information and
    details regarding the cases reviewed.

   Reviewed vehicle maintenance and repair agreement documents in the Contracting
    Authoring and Management System (CAMS).10

   Visited two VMFs to review controls over vehicle repair purchases.

   Benchmarked other government agencies to determine the types of
    procurement-related ethics violations reported.

We conducted this review from January through November 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 27, 2013, and included their comments where appropriate.

We assessed the reliability of the CRIMES data by interviewing OI personnel familiar
with the cases and the usage of the database. We also relied on CAMS for
documentation relevant to vehicle maintenance and repair agreements and assessed
the reliability of the data by comparing the data with available data in the case files. We
determined that the data from both systems were sufficiently reliable for the purposes of
this report.

Prior Audit Coverage

The U.S. Postal Service OIG did not identify any prior audits or reviews related to the
objective of this audit.




8
  Case management database used by the OIG OI to document, collect, and store case-related information when
investigating internal crimes and fraud against the Postal Service.
9
  We excluded cases that were under active investigation.
10
   CAMS is a contract writing tool that houses clauses and provisions relevant to various contracts.

                                                       8
Procurement-Related Ethical Violations                         SM-MA-14-002
 at Vehicle Maintenance Facilities


                           Appendix B: Management’s Comments




                                           9
Procurement-Related Ethical Violations        SM-MA-14-002
 at Vehicle Maintenance Facilities




                                         10
